                    The Wage and Investment Division’s
                    Discretionary Examination Program
                     Effectively Monitored Performance
                    Data to Meet Annual Program Goals

                                   October 2004

                       Reference Number: 2005-40-007




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  October 29, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                 (for) Gordon C. Milbourn III
                                  Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Wage and Investment Division’s
                                   Discretionary Examination Program Effectively Monitored
                                   Performance Data to Meet Annual Program Goals
                                   (Audit # 200440009)


      This report presents the results of our review of the Wage and Investment (W&I)
      Division Discretionary Examination Program. The overall objective of this review was to
      determine whether the Program is effectively managed to help ensure it meets its
      intended goals, including the evaluation of Program performance through adequate data
      collection, evaluation of Program deficiencies, and Program manager accountability.
      To assess the Discretionary Examination Program, we used the Program Assessment
      Rating Tool (PART) criteria created by the Office of Management and Budget to rate
      Federal Government programs. The PART is a systematic method of assessing the
      performance of program activities across the Federal Government. The PART is a
      diagnostic tool with the main objectives being to improve program performance and link
      performance to budget decisions.
      In summary, Discretionary Examination Program managers effectively used
      management information data to monitor annual Program goals and took corrective
      actions when appropriate. Our analysis of national- and campus-level1 management
      information reports confirmed that the Discretionary Examination Program was on
      schedule to meet its Fiscal Year 2004 goals. Discretionary Examination Program
      managers were held accountable for annual goals in their annual performance
      expectations. Further, we found that Reporting Compliance function management had



      1
       The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
      correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                              2

initiated operational reviews that would help manage and enhance the Discretionary
Examination Program.
However, Discretionary Examination Program managers were not effectively using
Customer Satisfaction Survey results.2 Customer Satisfaction Survey results indicated
that the combined W&I Division Earned Income Tax Credit (EITC) and Discretionary
Examination Programs’ percentage of taxpayers dissatisfied as of December 31, 2003,
was 51 percent, which was over their goal of 42 percent.3 Although W&I Division
Reporting Compliance function managers are developing an initiative in part to help
address taxpayer concerns regarding the length of the examination process and the
time spent on the examination, the Customer Satisfaction Surveys identified other areas
in which taxpayer satisfaction could be enhanced.
We recommended that the Commissioner, W&I Division, evaluate the Customer
Satisfaction Survey results to identify which taxpayer concerns are being addressed
through ongoing initiatives and which concerns still need to be addressed by the
Discretionary Examination Program.
Management’s Response: Internal Revenue Service (IRS) management disagreed with
the report recommendation and the finding which noted that they were not effectively
using the Customer Satisfaction Survey results. They contend that the survey vendor
provides an analysis of results which identifies improvement priorities. According to the
vendor, improvements in these areas have the greatest potential to improve taxpayer
satisfaction. As a result, IRS management continually focused their efforts on those
areas identified as improvement priorities.
Additionally, IRS management does not believe our report adequately recognizes all of
the efforts the IRS has taken to improve taxpayer satisfaction. Management’s complete
response to the draft report is included as Appendix IV.
Office of Audit Comment: Although the W&I Division Reporting Compliance function
has initiatives to improve taxpayer satisfaction, we did not find any Discretionary
Examination Program manager or employee that was aware of any use or detailed
analysis of the surveys. The surveys raised taxpayers’ concerns beyond those cited by
the IRS, provided insightful taxpayer comments, and outlined details of the Customer
Satisfaction ratings by campus. We believe using this information would focus the
W&I Division Reporting Compliance function’s ongoing improvement initiatives and
highlight continuing taxpayer concerns. This information would also allow Discretionary
Examination Program campus managers to timely initiate corrective actions when a
campus was not meeting their goal for Customer Satisfaction.



2
  Taxpayer satisfaction is periodically measured by Customer Satisfaction Surveys. These surveys allow taxpayers
to provide feedback and rate their satisfaction level (i.e., satisfied, dissatisfied, or neither satisfied nor dissatisfied)
with the Internal Revenue Service’s customer service.
3
  The surveys capture combined data for the EITC and Discretionary Examination Programs and do not break out
the results between the two Programs.
                                            3

In their response, W&I Division executives cited an increase in the level of Customer
Satisfaction reported in a recent survey. A prior vendor report had mentioned a similar
increase but had also noted that this increase was not statistically significant. While we
                                           4

still believe our recommendation is worthwhile, we do not intend to elevate our
disagreement concerning it to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
           The Wage and Investment Division’s Discretionary Examination Program
            Effectively Monitored Performance Data to Meet Annual Program Goals




                                                  Table of Contents


Background ............................................................................................... Page 1
Discretionary Examination Program Managers Effectively
Used Data to Monitor Their Annual Performance Goals ........................... Page 3
Discretionary Examination Program Managers Could Expand
Their Use of the Customer Satisfaction Survey Results............................ Page 5
         Recommendation 1: .........................................................................Page 7

Discretionary Examination Program Managers Were Held
Accountable for Program Performance Results ........................................ Page 8
Reporting Compliance Function Management Initiated
Operational Reviews to Evaluate Management Effectiveness .................. Page 9
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Management’s Response to the Draft Report .................... Page 14
       The Wage and Investment Division’s Discretionary Examination Program
        Effectively Monitored Performance Data to Meet Annual Program Goals

                               The Internal Revenue Service’s (IRS) Wage & Investment
Background
                               (W&I) Division serves approximately 121 million taxpayers
                               who file a U.S. Individual Income Tax Return (Form 1040)
                               with no accompanying Schedules C, E, or F; no Employee
                               Business Expenses (Form 2106); and no international
                               activity.1 The W&I Division Reporting Compliance
                               function conducts examinations of tax returns filed by
                               W&I Division taxpayers that meet certain examination
                               criteria. These examinations look at the less complex issues
                               on tax returns that can be verified from records that could be
                               easily submitted by mail.
                               The W&I Division Reporting Compliance function is made
                               up of several programs. The Earned Income Tax Credit
                               (EITC) Program is responsible for the examination of tax
                               returns with EITC claims. The Discretionary Examination
                               Program is responsible for the examination of all non-EITC
                               tax returns. Even though these are separate program areas,
                               the examination of tax returns is done by the same
                               employees in the five W&I Division campuses.2
                               The W&I Division, in its strategic assessment,3 identified
                               the risk of declining compliance as a key issue and
                               recognized the continuing need to improve its enforcement
                               programs to reduce the risk of noncompliance. As a result,
                               the workload for the Discretionary Examination Program
                               has been increased from 44,117 examination closures in
                               Fiscal Year (FY) 2002 to almost 80,000 examination
                               closures planned for FY 2004.
                               To assess the Discretionary Examination Program, we used
                               the Program Assessment Rating Tool (PART) criteria
                               created by the Office of Management and Budget (OMB) to
                               rate Federal Government programs. The PART is a
                               systematic method of assessing the performance of program
                               activities across the Federal Government. It is a diagnostic


                               1
                                 Schedule C – Profit or Loss From Business (Sole Proprietorship);
                               Schedule E – Supplemental Income and Loss; Schedule F – Profit or
                               Loss From Farming.
                               2
                                 The data processing arm of the IRS. The campuses process paper and
                               electronic submissions, correct errors, and forward data to the
                               Computing Centers for analysis and posting to taxpayer accounts.
                               3
                                 Strategic assessments are part of the IRS’ strategic planning,
                               budgeting, and performance measurement process.
                                                                                            Page 1
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals

                        tool with the main objectives being to improve program
                        performance and link performance to budget decisions.
                        This is the second in a series of reviews using the
                        PART process to focus on the Discretionary Examination
                        Program.4 Our first review found that the W&I Division
                        Compliance function has a comprehensive strategic
                        planning process to help ensure it manages resources and
                        meets its annual goals and performance levels for the
                        Discretionary Examination Program. However, we reported
                        that the IRS will not be able to measure the success of its
                        efforts to improve the goal of service to all taxpayers
                        through the fair and uniform application of the tax law
                        because the Discretionary Examination Program currently
                        does not have long-term outcome goals to assess the
                        Program’s effect.
                        Our current review assessed Discretionary Examination
                        Program management effectiveness using Section III of the
                        PART. This section focuses on whether a program is
                        effectively managed to meet annual program performance
                        goals. Key areas include evaluation of program
                        improvements, performance data collection, and program
                        manager accountability. Specifically, we looked at the
                        following FY 2004 annual performance goals for the W&I
                        Division Discretionary Examination Program5 using the
                        PART process:
                            •   Discretionary Audit Closures.
                            •   Service Center (SC)6 Examination Customer
                                Satisfaction/Dissatisfaction.
                            •   Correspondence Examination Embedded Quality.
                            •   SC Examination Employee Satisfaction.
                            •   Percentage of Aged Mail to Total Started Inventory.



                        4
                          More Information Is Needed to Determine the Effect of the
                        Discretionary Examination Program on Improving Service to All
                        Taxpayers (Reference Number 2003-40-185, dated August 2003).
                        5
                          Our first review evaluated the adequacy and relevance of Program
                        goals. We did not reevaluate these issues during our current review.
                        6
                          IRS campuses were formerly known as Service Centers.
                                                                                        Page 2
        The Wage and Investment Division’s Discretionary Examination Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                    •   Discretionary Cycle Time.
                                    •   Projected New Start Volume.
                                This review was performed at the W&I Division
                                Headquarters in Atlanta, Georgia, in the Discretionary
                                Examination Program Office during the period April
                                through July 2004. The audit was conducted in accordance
                                with Government Auditing Standards. Detailed information
                                on our audit objective, scope, and methodology is presented
                                in Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                Our analysis of national- and campus-level management
Discretionary Examination
                                information reports confirmed that the Discretionary
Program Managers Effectively
                                Examination Program was on schedule to meet its FY 2004
Used Data to Monitor Their
                                goals. Discretionary Examination Program management
Annual Performance Goals
                                had timely initiated corrective actions when management
                                information reports indicated that interim monthly
                                performance goals were not met or when there was an
                                indication that the data in the management information
                                reports were incorrect.
                                When performance results did not meet expected outcomes,
                                management took immediate action. For example,
                                Discretionary Examination Program staff identified, through
                                their reviews of management information reports, a
                                potential problem in meeting the Program’s annual goal for
                                starting over 95,000 new examinations in FY 2004. To
                                accomplish the goal, each program area within the
                                Discretionary Examination Program was given specific
                                monthly and annual goals.
                                As of March 2004, the Discretionary Examination Program
                                was exceeding the expected volume for starting new
                                examinations. However, the unallowable deductions
                                program area had not received enough cases to meet its
                                monthly or annual goals. Since there is no way to control
                                the number of tax returns with unallowable deductions, the
                                Program manager reduced the annual goal for the
                                unallowable deduction cases and increased the goal for
                                another program area. This timely action ensured resources
                                were productively used and that the Discretionary
                                Examination Program’s annual goal for new examinations
                                would be met.
                                                                                      Page 3
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals

                        The Program manager and his staff are currently working
                        with the Small Business/Self-Employed Division and the
                        Submissions Processing function to improve the
                        unallowable deduction case selection process.
                        The Program manager also provided us an example of
                        where his staff identified that the performance data for
                        measuring Discretionary Examination Program quality was
                        coded for the incorrect Program. EITC and Discretionary
                        Examination Program cases were sometimes incorrectly
                        coded, causing some of the Discretionary Examination
                        Program quality results to be reported under the EITC
                        Program and vice versa. While the overall combined
                        quality results for correspondence examinations was correct,
                        management does not know if the Discretionary
                        Examination Program is meeting its individual quality goal.
                        This was the first year that EITC Program quality and
                        Discretionary Examination Program quality have been
                        reported with different codes. The Program manager and
                        his staff were working closely with the Quality Team and
                        the campus managers to prevent the incorrect coding issue
                        from recurring in the next fiscal year.
                        The OMB PART process stresses that agencies need to
                        “regularly collect timely and credible performance
                        information…and use it to manage the program and
                        improve performance.” By effectively gathering
                        performance data and continuing to monitor their Program’s
                        success in achieving its annual goals, Discretionary
                        Examination Program management can ensure their
                        resources are maximizing their compliance efforts.




                                                                             Page 4
         The Wage and Investment Division’s Discretionary Examination Program
          Effectively Monitored Performance Data to Meet Annual Program Goals

                                 Discretionary Examination Program management was not
Discretionary Examination
                                 effectively using the Customer Satisfaction Survey results.7
Program Managers Could
                                 The W&I Division EITC and Discretionary Examination
Expand Their Use of the
                                 Programs were meeting their overall FY 2004 combined
Customer Satisfaction Survey
                                 goal for percentage of taxpayers satisfied.8 However, the
Results
                                 Programs were not meeting their goal of limiting the
                                 percentage of taxpayers that were dissatisfied. As of
                                 December 31, 2003, based on the Customer Satisfaction
                                 Survey results, the percentage of taxpayers satisfied met the
                                 30 percent goal. However, the percentage of taxpayers
                                 dissatisfied was 51 percent, which was over the taxpayer
                                 dissatisfaction goal of 42 percent. In addition, 19 percent of
                                 the taxpayers responding to the surveys were neither
                                 satisfied nor dissatisfied with the W&I Division EITC and
                                 Discretionary Examination Programs’ service.
                                 Our analysis of the Customer Satisfaction Survey results for
                                 the W&I Division EITC and Discretionary Examination
                                 Programs indicated that only two W&I Division campuses
                                 were actually meeting or exceeding the goal for percentage
                                 of taxpayers satisfied and only one W&I Division campus
                                 was meeting the goal for limiting the percentage of
                                 taxpayers dissatisfied. Table 1 compares the goals with the
                                 actual survey results by W&I Division campus.




                                 7
                                   Taxpayer satisfaction is periodically measured by Customer
                                 Satisfaction Surveys. These surveys allow taxpayers to provide
                                 feedback and rate their satisfaction level (i.e., satisfied, dissatisfied, or
                                 neither satisfied nor dissatisfied) with the IRS’ customer service.
                                 8
                                   The surveys capture combined data for the EITC and Discretionary
                                 Examination Programs and do not break out the results between the two
                                 Programs.
                                                                                                      Page 5
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals

                               Table 1: Fiscal Year 2004 EITC and Discretionary
                           Examination Programs Customer Satisfaction Survey Results
                                             (as of December 2003)

                                                          Taxpayers       Taxpayers
                                       Campus              Satisfied      Dissatisfied
                             FY 2004 Goal                 30 percent      42 percent
                             Andover                       27 percent      45 percent
                             Atlanta                       25 percent      55 percent
                             Austin                        27 percent      60 percent
                             Fresno                        30 percent      52 percent
                             Kansas City                   38 percent      42 percent
                             W&I Division Combined        30 percent      51 percent
                        Source: IRS Customer Satisfaction Survey for Compliance Center
                        Examination W&I Division National Report (issued May 2004) and the
                        FY 2004 Examination Work Plan and Guidelines Report.

                        Although the Customer Satisfaction Survey process has
                        provided feedback on the quality of service received by
                        taxpayers, the Program manager informed us that he did not
                        believe that the survey results were reflective of his Program
                        because the survey results for the EITC and Discretionary
                        Examination Programs were combined. Even though the
                        same employees work both Programs, the Program manager
                        told us that combining the survey results for both Programs
                        might adversely affect their reliability as related to the
                        Discretionary Examination Program. We believe the
                        Program manager could decrease taxpayer dissatisfaction by
                        analyzing the cause of these fluctuations and taking further
                        corrective actions to address them.
                        The Director, Reporting Compliance, stated that he and his
                        staff used the Customer Satisfaction Survey results and they
                        have taken actions, including developing a Reporting
                        Compliance function initiative called the 80/20 concept.
                        The initiative was designed, in part, to increase productivity
                        and taxpayer satisfaction by reducing the length of the audit
                        process and the time spent on the audit. In addition, in
                        June 2004 an analyst prepared a summary of the ongoing
                        W&I Division Reporting Compliance initiatives that
                        addressed the Customer Satisfaction Survey results.


                                                                                    Page 6
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals

                        We believe that Discretionary Examination Program
                        management could further improve taxpayer satisfaction by
                        evaluating the Customer Satisfaction Survey results to
                        identify which taxpayer concerns are being addressed
                        through ongoing Reporting Compliance function initiatives
                        and which concerns still need to be addressed. The
                        contractor that conducted the survey recommended several
                        areas for management to direct their focus. For example,
                        the contractor highlighted the time spent on the examination
                        process as one area for improvement. While the W&I
                        Division Reporting Compliance function has taken steps to
                        address this issue, the surveys identified other areas in
                        which taxpayer satisfaction could be enhanced. These areas
                        included providing the taxpayer a clearer explanation of the
                        adjustment, keeping the taxpayer informed of the status of
                        their cases, and ensuring the taxpayers understood the report
                        they received.
                        Although the Discretionary Examination Program followed
                        the OMB PART process by regularly collecting timely and
                        credible performance information, it did not make effective
                        use of all the data to manage the Program and improve
                        performance. Effectively using these data would support
                        the IRS Commissioner’s goal for the IRS to expand its focus
                        towards taxpayer compliance without comprising the
                        strategic goal of customer service. The Commissioner
                        stated that, “The IRS commitment to service continues, even
                        as we sharpen our focus on enforcement. This is, therefore,
                        not an issue of service OR enforcement, but of service AND
                        enforcement. They are both important priorities, as
                        reflected in our working equation Service + Enforcement =
                        Compliance.”

                        Recommendation

                        The Commissioner, W&I Division, should:
                        1. Evaluate the Customer Satisfaction Survey results to
                           identify which taxpayer concerns are being addressed
                           through ongoing initiatives and which concerns still
                           need to be addressed by the Discretionary Examination
                           Program.


                                                                              Page 7
        The Wage and Investment Division’s Discretionary Examination Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                Management’s Response: IRS management disagreed with
                                our finding that they were not effectively using the
                                Customer Satisfaction Survey results. They contend that the
                                survey vendor provides an analysis of results which
                                identifies improvement priorities. According to the vendor,
                                improvements in these areas have the greatest potential to
                                improve taxpayer satisfaction. As a result, IRS management
                                continually focused their efforts on those areas identified as
                                improvement priorities.
                                Additionally, IRS management does not believe our report
                                adequately recognizes all of the efforts the IRS has taken to
                                improve taxpayer satisfaction.
                                Office of Audit Comment: Although the W&I Division
                                Reporting Compliance function has initiatives to improve
                                taxpayer satisfaction, we did not find any Discretionary
                                Examination Program manager or employee that was aware
                                of any use or detailed analysis of the surveys. The surveys
                                raised taxpayers’ concerns beyond those cited by the IRS,
                                provided insightful taxpayer comments, and outlined details
                                of the Customer Satisfaction ratings by campus.
                                We believe using this information would focus the
                                W&I Division Reporting Compliance function’s ongoing
                                improvement initiatives and highlight continuing taxpayer
                                concerns. This information would also allow Discretionary
                                Examination Program campus managers to timely initiate
                                corrective actions when a campus was not meeting their
                                goal for Customer Satisfaction.
                                In their response, W&I Division executives cited an increase
                                in the level of Customer Satisfaction reported in a recent
                                survey. A prior vendor report had mentioned a similar
                                increase but had also noted that this increase was not
                                statistically significant.
                                In addition to the general performance standards required
Discretionary Examination
                                for all IRS managers, specific performance standards related
Program Managers Were Held
                                to the Discretionary Examination Program were
Accountable for Program
                                documented in the Program manager’s and the five campus
Performance Results
                                managers’ annual performance expectations. Although
                                these expectations did not individually address each specific
                                Program goal, they did set the expectation that the managers


                                                                                       Page 8
        The Wage and Investment Division’s Discretionary Examination Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                would be evaluated on their ability to meet the Discretionary
                                Examination Program’s annual goals.
                                The OMB PART process stresses that program management
                                identify the managers who are responsible for achieving key
                                program results and establish performance standards for
                                them. This established a link for Discretionary Examination
                                Program managers between management performance and
                                Program results. It also emphasized the importance of
                                Program accomplishments by forcing management to focus
                                their personal performance towards achieving their
                                Program’s annual goals.
                                Reporting Compliance function management initiated
Reporting Compliance Function
                                operational reviews to help manage and enhance the
Management Initiated
                                Discretionary Examination Program. As of May 2004,
Operational Reviews to
                                Reporting Compliance function management had completed
Evaluate Management
                                and reported the results for operational reviews at the
Effectiveness
                                Atlanta, Georgia, and Austin, Texas, Campuses. The
                                operational reviews addressed the entire Reporting
                                Compliance function, including specific Discretionary
                                Examination Program annual goal activities, and identified
                                several areas of concern.
                                For example, the Atlanta review team identified errors in a
                                small sample of closed EITC and Discretionary
                                Examination Program cases. In 27 percent of the cases
                                reviewed, there were errors such as delayed
                                acknowledgements, incomplete workpapers, and not giving
                                the taxpayer enough time to respond. The review team
                                recommended that, because of the small sample, Atlanta
                                management review additional cases to validate the error
                                rate and then discuss the results with their employees. If
                                implemented, this action should help to improve the quality
                                of the Discretionary Examination Program cases, improve
                                customer service, and help the Discretionary Examination
                                Program meet its annual quality performance goals.
                                The OMB PART process stresses that management needs to
                                develop a system of evaluating program management and
                                correcting deficiencies when they are identified. By using
                                the information obtained through operational reviews,
                                Discretionary Examination Program management could
                                effectively monitor management effectiveness and address
                                Program deficiencies.
                                                                                      Page 9
         The Wage and Investment Division’s Discretionary Examination Program
          Effectively Monitored Performance Data to Meet Annual Program Goals

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Wage and Investment (W&I)
Division Discretionary Examination Program is effectively managed to help ensure it meets its
intended goals, including the evaluation of Program performance through adequate data
collection, evaluation of Program deficiencies, and Program manager accountability. To
accomplish this objective, we:
I.      Determined whether the Discretionary Examination Program is effectively managed to
        meet its annual performance goals.
        A. Interviewed Program management and reviewed various national- and campus-level1
           management information reports2 to determine whether management used regularly
           collected timely and credible performance information to manage the Discretionary
           Examination Program and improve performance.
        B. Interviewed Program management and reviewed various national- and campus-level
           management information reports to determine whether the quality assurance process
           for the Discretionary Examination Program ensures performance measures accurately
           reflect the Program’s performance.
II.     Determined whether Discretionary Examination Program management is held
        accountable for performance results.
        A. Obtained and reviewed the Fiscal Year (FY) 2004 Internal Revenue Service (IRS)
           manager performance standards and additional Discretionary Examination Program
           expectations for the Program and campus-level managers.
        B. Compared the IRS manager performance standards and additional expectations to the
           Discretionary Examination Program’s FY 2004 performance goals to determine
           whether the manager performance standards and additional expectations are linked to
           the Program’s annual performance goals.
III.    Determined whether Discretionary Examination Program management has taken
        meaningful steps to evaluate Program management effectiveness and address
        management deficiencies.




1
  The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  We did not audit the reliability of the data contained in the national- and campus-level management information
reports.
                                                                                                        Page 10
 The Wage and Investment Division’s Discretionary Examination Program
  Effectively Monitored Performance Data to Meet Annual Program Goals

A. Interviewed Discretionary Examination Program management to determine how they
   evaluate Program management effectiveness and ensure management deficiencies are
   identified and addressed.
B. Reviewed the W&I Division Business Performance Review Reports for the first
   2 quarters in FY 2004 to determine whether the Discretionary Examination Program
   is effectively being managed and if any management deficiencies were identified
   during this process.
C. Reviewed operational reviews conducted by W&I Division Reporting Compliance
   function management at the Atlanta, Georgia, and Austin, Texas, Campuses to
   evaluate Program management effectiveness and identify any management
   deficiencies in the Discretionary Examination Program.




                                                                             Page 11
        The Wage and Investment Division’s Discretionary Examination Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Alan Lund, Lead Auditor
Craig Pelletier, Auditor
Nelva Usher, Auditor




                                                                                         Page 12
       The Wage and Investment Division’s Discretionary Examination Program
        Effectively Monitored Performance Data to Meet Annual Program Goals

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 13
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals

                                                               Appendix IV


           Management’s Response to the Draft Report




                                                                       Page 14
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals




                                                                       Page 15
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals




                                                                       Page 16
The Wage and Investment Division’s Discretionary Examination Program
 Effectively Monitored Performance Data to Meet Annual Program Goals




                                                                       Page 17
